5023
IN THE
SUPREME COURT OF THE UNITED STATES

Supreme Court, U.S.
FILED

CARTER VINCENT ANDERSON - PETITIONER

VS.

MAY 2 7 2020
OFFICE OF THE CLERK

DARREL VANNOY, WARDEN ~ RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEAL FOR TOE FIFTH CIRCUIT
(NAME OF CCRIRT THAT LAST RULED ON MOOTS OF YOUR CASE)
PETITION FOR CERTIORARI

CARTER VINCENT ANDERSON #418030
CAMP C BEAR 1
LOUISIANA STATE PENITENTIARY
ANGOLA, LOUISIANA 70712
Prepare Bjr:

CAMP C - LITIGATION TEAM
DR. ERIC M. DENET, PHD., TH.D., DIV.D,, C.ED.D,
#380958 CAMPC WOLF-2
CERTIFIED PARALEGAL / OFFENDER COUNSEL!!!

QUESTION^) PRESENTED
Whether the District. Court and Court ofAppeal erred in review of claim presented which clearly ahow
ineffective assistance of counsel on both trial and appellate counsels?

Was them a Batsm violation which was unchallenged by trial counsel?

Did appellate counsel failure to bring a Batson challenge on direct appeal violate Petitioner's right to
effective assistance of counsel?

Whether the District. Court, and Court of Appeal erred in failing t o recognize Petit ioner's rights were
violated when the confession was not suppressed?

Is there prosecutorial misconduct resulting from “alternative facts” offered by the prosecutor which
were never shows by evidence?

Was there a. violation of Petitioner's rights when the prosecutor failed to preserve evidence and also
elicit testimony about the missing evidence?

Did the District Court, and Court, of Appeal err in failing to hold an evidentiary hearing in order to have
the taking oftestimony and gaining further evidence in support of his claims?

LIST OF PARTIES
[ ]

All parties sqjpear m the caption of the case on the cover page.

IX!

,41! parties do not ajipear in the caption of the case on the cover page. A list of all parties to the
proceeding in the court wfa ose judgment is the subject of this petition is as follows;

Carter Anderson #418030
Camp C Bear 1
Louisiana State Prison
Angola, Louisiana 70712
Darrel Vaanoy, Warden
Administration Building
Louisiana State Prison
Angola,, Louisiana 70712
Warren Montgomery, District Attorney
701 N. Columbia Street
Covington, Louisiana 70433

n

TABLE OF CONTENTS
QUESTION^) PRESENTED....................................... .....................
LIST OF PARTIES...........................................................................

1

TABLE OF AUTHORITIES CITED..................................................

4

OPINIONS BELOW,.......,.,,....,..,..,.......,..,,...................... ..................

6

JUMSDICIiOH...............................................................................

7

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED.

8

STATEMENT OF THE CASE........,,.,...............................................

9

Course of Proceedings.................................................................. .

9

Fasts ofthe Offense......................................................................

10

REASONS FOR GRANTING THE PETITION..................................

1

LAW AND ARGUMENT..................................................................

I

Claim No. 1................................................................................

1
5

Claim No. 2..........................................................................
Claim No. 1......................... .................................................
Claim No. 4...........................................................................
Claim No. 5............................................... ............................
CONCLUSION

2

13

29
30
33

PROOF OF SERVI CE

INDEX TO APPENDICES
APPENDIX A

United States Court, ofAppeal, Fifth Circuit, denial

APPENDIX B

Petitioner's Motion for Certificate of Appealability (COA)

APPENDIX C

United States District Court, Eastern District of Louisiana, denial

APPENDIX D

Petitioner's Writ of Habeas Corpus with attached Exhibits

in

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Self v. Collins, 973 F.2d 1198,1205 (C.A. 5 Tex. 1992).................................................................

1

Stale v. West, 408 So.2d 1302,1308 (La. 1982)..............................................................................

3

State v. Labostrie, 96-2003 (La. App. 4th Cir. 11/19/97), 702 So.2d 1194,
writ denied, 98-0250 (La 6/26/98), 719 So.2d 1048..................................................................

3

Miranda v. Arizona, 340 U S. 436,86 S.Ct. 1602,16 L.Ed.2d 694 (1966).....................................

3

Schneckloth v. Bustamonte, 412 U.S. 218,225-26,93 S.Ct 2041,2047,36 L.Ed,2d 854 (1973).,

,„5

Miller-El v. Dretke, 545 U.S. 231,125 S.Ct. 2317,2319,162 LJEd2d 196....................................

5

Georgiav. McCollum, 505 U.S. 42,44,112 S.Ct 2348,120 L.Ed.2d 33........................................

5

Batson v. Kentucky, 476 U.S. 79, 85,106 S.Ct. 1712,1716,90 L.Ed.2d 69....................................

5

Norris v. Alabama, 294 U.S. 587,55 S.Ct. 579,584,79 L.Ed. 1074 (1935)...................................

6

Neal v. Delaware, 13 Otto 370, 397,103 U.S. 370, 397,26 L Ed. 567 (1881)................................

6

Thiel v. Southern Pacific Co., 328 U.S. 217,223-24,66 S.Ct. 984,987-88,90 L.Ed 1181 (1946)

6

Ballard v. United States, 329 U.S. 187,195,67 S.Ct. 261,265,91 L.Ed. 181 (1946)....................

6

McCray v. New York, 461 U.S. 961,968,103 S.Ct. 2438,2443,77 L.Ed.2d 1322 (1983).,..........

6

State v. McIntyre, 381 So.2d 408 (La 1980)...................................................................................

7

State v. Webb, 364 So.2d 984 (La 1978); La C.Cr.P. Art. 797........................................................

7

State v. Jacobs, 07-887, (La App. 5th Cir. 5/24/11), 67 So.3d at 544-555.......................................

10

Batson v. Kentucky, 476 U.S., at 96-98,106 S.Ct. at 1723 1724.....................................................

10

State v. Shannon, 10-580, (La App. 5th Cir. 2/15/11), 61 So.3d 706, 719 (internal citations omitted) .11
Village ofArlington Heights v. Metropolitan Housing Development Corp.,
429 U.S. 252,266,97 S.Ct. 555,50 L.Ed.2d450 (1977)...................... !...................

11

Hunter v. Underwood, 471 U.S. 222,229,105 S.Ct. 1916,85 L.Ed.2d 222 (1985)........

11

Strander v. West Virginia, 100 U.S. 303,10 Otto 303,25 L.Ed. 664 (1880)...................

12

Avery v. Georgia, 345 U.S. 559,562,73 S.Ct. 891,893,97 L.Ed. 1244 (1953).............

12

Miller-El v. Dretke, 545 U.S., at 252,125 S.Ct, at 2332.................................................

13

Banks v. Dretke, 540 U.S. 668,696,124 S.Ct. 1256,1275,157 L.Ed.2d 1166 (2004)....

13

Brady v. Maryland, 373 U.S. 83,87,83 S.Ct. 1194,10 L.Ed.2d 215 (1963)...................

14

United States v. Bagley, 473 U.S. 667,682,105 S.Ct. 3375,87 L.Ed.2d 481 (1985).....

14

Kyles v. Whitely, 514 U.S. 419,434,115 S.Ct. 1555, 131 L.Ed.2d49G (U.S. La 1995)

14

IV

United States v. Agurs, 427 U.S. 97,112-13,96 S.Ct 2392,49 L.Ed.2d 342 (1976).................

15

Spano v. New York, 360 U.S. 315,324,79 S.Ct. 1202,1207,3 L.Ed.2d 1265 (U.S. NY 1959)
State v. King, 06-2383, (La. 4/27/07), 956 So.2d 562, 570.........................................................

27
27

In reToups, 00-0634 (La. 11/28/00), 773 So.2d 709,715...........................................................

27

Napue v. People of State of Illinois, 360 U.S. 264, 269,79 S.Ct. 1173, 1177,3 L.Ed.2d 1217 (1959) .28
People v. Sawides, 1 N.Y.2d 554,557,154N.Y.S.2d 885,887,136N.R2d 853,854-55.

28

Giglio v. United States, 405 U.S. 150,154,92 S.Ct. 763, 766,31 L.Ed.2d 104 (1972)....

28

Napue v. People of State of Illinois, 360 U.S. 264, 271,79 S.Ct. 1173, 1178,3 L.Ed.2d 1217 (1959) .28
Anders v. California, 386 U.S. 738,744,87 S.Ct. 1396,1400,18 L.Ed.2d 493 (1967).......

29

State v. Jyles, 96-2669, (La 12/12/97), 704 So.2d 241, 242.................................................

30

State v. Mouton, 95-0981, (La 4/28/95), 653 So.2d 1176....................................................

30

Evitts v. Lacey, 469 U.S. 387,105 S.Ct. 830,83 L.EcL2d 821 (1985).................................

30

McCoy v. Court ofAppeals cf Wisconsin, Dist. 1,486 U.S. 429,438,108 S.Ct 1895,
100 L.Ed.2d 440 (1988), 56 USLW 4520............................. ....... ..................................

30

State v. Danzart, 02-1187 (La App. 5th Cir. 3/25/03), 844 So.2d 159,168.........................

31

State v. Baker, 2006-2175 (La 10/16/07), 970 So.2d 948,957.............................................

32

State v. Ruiz, 2006-1755 p. 12-13 (La 4/11/07,955 So.2d 81,89........................................

32

State v. Holloway, 2012-0926 (La App. 4th Cir. 7/3/13), 120 So.3d 795,797.....................

32

North Carolina v. Pearce, 395 U.S. 711,717,89 S.Ct. 2072,2076,23 L.Ed2d 656 (1969).

32

State v. Vangb, 431 So.2d 763,767 (La 1983).....................................................................

32

State v. Warner, 94-2649, p. 4 (La App. 4th Or. 3/16/95), 653 So.2d 57,59.......................

32

STATUTES AND RULES
La C.Cr.P. Ait. 882

30

La C.Cr.P. Ait. 881.5.

30

La. ItS, 15:529,1,,,,,,

31

La R.S. 14:64.

31

La R.S. 14:95.4.

31

OTHER
Lanza, Michael L., “Little More Uian A Family Matter The Constitution of 1898” In Search of
Fundamental Law. pp. 93-109.........................................................................................................
v

12

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

m

For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix “A” to the
petition and is
[XI
reported at Anderson v. Vannoy. Wag-den. US Fifth Circuit Court of Appeals
No. lft-30397: or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix “C” to
the petition and is
reported at Anderson v. Vannoy, Warden. USDC No. 18-7977: or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

m

[X]

For cases from state courts:
The opinion of the highest state court to review the merit s appears at
Appendix “D” to the petition and is
[X]
reported at State ex rel. Anderson v. State. 249 So.3d 822 (La. 8/3/18): or,
[ ] has been designated for publication but is not yet reported; or,
is unpublished.
[ ]
The opinion of the Louisiana. First Circuit Court, of Appeal appears at Appendix “D”
to the petition and is
[X]
reported at State v. Anderson. 2017 WL 6603954 {La. App. lrt Cir. 8/21/171: or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

VI

JURISDICTION
1X1

For cases Irani federal courts:
The date on which the United States Court ofAppeals decided my case
was April 14.2020 .
[ ]

No petition for rehearing was timely filed in my case.

[ ]

A tim ely petition for rehearing was denied by the United States Court of Appeals
on the following date;____________
.»and a copy of the order
denying rehearing appears at Appendix.

[ ]

An extension of time to file the petition for a. writ of certiorari was granted to and
including____
(date) on
(date) in
Application No,

The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).

[XI

For cases from state courts:
Hie date on which the highest state court decided my case was An gust 3. 2018.
A copy cf that decision appears at Appendix “A”.
[ ]

A timely petition for rehearing was thereafter denied on the following date:
_____________________, and a copy of the order denying rehearing appears
at Appendix

[ ]

An extension of time to file the petition for a. writ of certiorari was granted to and
including____
_(date) on
(date) in Application
No.

The jurisdiction of this Court, is invoked under 28 U.S.C. § 1257(a).

VII

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Fifth Amencknent to the United States Constitution
Sixth Amendment to the United States Constitution
Eighth Amendment to the United States Constitution
Fourteenth Amendment to the United States Constitution

VIJl

STATEMENT OF THE CASE
Course ofProceedings
Anderson was charged by bill of information with one count of armed robbery and one
court of being a felon in possession of a firearm. He entered not guilty pleas to both. On
November 15, 2012,, Anderson was found guilty as charged on both counts. On February 4,
2013, he was sentenced to concurrent terms of 60 years and 10 years at hard labor. On April 16,
2013, he was adjudicated a third felony offender and re-sentenced to life imprisonment at hard
labor without the possibility of parole, probation, or suspension of sentence.
Andersen timely appealed his convictions and sentences without success. He also
launched a timely, yet unsuccessful collateral attack, on his convictions and sentences.
Anderson also filed a Motion to Correct an Illegal Habitual Offender Sentence which was
ultimately denied by the Louisiana Supreme Court.
On August 20, 2018, Anderson filed a timely petition for writ of habeas corpus in the
Eastern District of Louisiana. On May 10,2019, the district court dismissed Anderson's petition
with prejudice and did not issue a certificate of appealMity. He then sought COA from to the
United Stales Court of Appeal for the Fifth Circuit. On April 14, 2020, the Court denied
Anderson’s OH A and the district court's denial of an evidentiary hearing; was affirmed.
Petitioner Carter Anderson now seeks Writ of Certiorari to this Honorable United States
Supreme Court.

is

Facts ofthe Offense
Larry Bennett (“Mr. Bennett”) was robbed of his vehicle after he was startled awake in a
Wal-Mart parking lot. In the course of the robbery, which happened in the middle of the night,
Mr. Bennett was struck with a weapon and forced to cover his head with a blanket to prevent
him from identifying his attacker.
Investigator's tracked Mr. Bennett's cell-phone to a borne where Anderson was staying
with his girlfriend and her relatives. The police initially believed Vincent Navarre, the
boyfriend of the relative of Anderson's girlfriend, was the perpetrator of this crime. Navarre,
however, was eliminated as a suspect without any investigation because a police officer went to
high school with him. After Navarre was eliminated, Anderson became the primary suspect.
John Binder (“Binder”) testified for the State and said he and his sister were leaving
Wal-Mart when he observed glass on the ground and “a short black man, standing with a car
door open. And there was an older looking man sitting in the driver seal of the car” Binder said
he “could dearly see because there's a light pole nearly.” Binder described the perpetrator as
“maybe five-five. Kind of on the shorter side for a male.” He described the victim as being
“around five nine or five 10 ” Although Binder claimed to have saw eveiything clearly with the
aid of the lighting in the parking lot, he also adnitted he could not identify the black male who
robbed Mr. Bennett.
According to Detective Robert Chadwick, Vincent Navarre was not really a suspect. He
told the jury the prime suspect was “Ms. Laura Bolden's boyfriend ... Carter Anderson.” Det.
Chadwick also admitted the police lost many items of evidence.

Detective Daniel Suzeneaux admitted the investigation was sloppy and that the polce
failed to properly collect evidence. In fact, the police failed to preserve most of the alleged

evidence referred to at Anderson's trial; moreover, the police did not even try to conduct any
type of identification procedure with Mr. Bennett.
Accordingly, Anderson is entitled to have this Certiorari granted.

XI

REASONS FOR GRANTING THE PETITION

LAW AND ARGUMENT
Claim No. 1: The trial court erred when it denied Ander son's motion to suppress
statements. The statements were used in Anderson's trial and rendered it
fundamentally unfair in violation of the Fifth, Sixth, and Fourteenth
Amendment to the United States Constitution.
The Court of Appeals for the Fifth Circuit has said that the “Fifth Amendment provides
that no person 'shall be compelled in any criminal case to be a witness against himself.p* i The
Fifth Circuit has also said that the privilege against seIf-incrimination also applies to state
prisoners. Pointing to the United States Supreme Court jurisprudence,, the Fifth Circuit has held
that states sure precluded from “securing criminal conviction resulting from coercive police
conduct “
The district court improperly denied Anderson's motion to suppress his statement.
Anderson's trial counsel argued that the detectives investigating the robbery used several
threatening arid coercive tactics and caused Anderson to make an incriminating statement.
What makes this bad is that there is not any evidence to support the false confession wrangled
from Anderson. The photographs taken by the police when they executed their search warrant
was lost. The alleged traffic ticket,, which supposedly connected Anderson to the vehicle a gun
was formed, was also lost.
The detectives in this case repeatedly gave Anderson false and misleading information
to convince him that an armed robbery- conviction was inevitable. The worst part, however, is
that the detectives told Anderson they would pursue charges against his girlfriend, Lauren
1 Stef* C&mrn\ 973 F.2d 1198,1205 (C.A. 5 Tex. 1992)
1

Bolden, if he did not tell them what they wanted to hear. Not stopping there, the detectives
went on to tell him that they would also take his girlfriend’s child away. Seeing no way out of
the situation, Anderson not only answered the detectives' questions as best as he could, he also
confessed to a crime he did not commit. The confession,, however, is not supported by any
evidence presented to the jury. The State further failed to produce any evidence that connects
Anderson to the robbery or the weapon that was found. It is obvious that Anderson gave a false
confession to appease the detectives.
Accordingly, Anderson's conviction and sentence for both offenses should be reversed
and set aside because the district court committed reversible error when it denied his motion to
suppress.
It is undeniable, what happened to Mr. Bennett was unfortunate and horrible; however,
officers of the law are not permitted to resort to the unlawful methods they employed when
forcing a false confession from Anderson. Apparently, the detectives were more concerned with
getting a suspect than with how they got a suspect. In total, the investigation was deplorable.
Many pieces of evidence was lost, and a lot of mistakes were made; nevertheless, these
detectives claimed that their manipulative and coercive ways were justified because Anderson
eventually incriminated himself.
Neither Mr. Bennett or Binder could identify Anderson. There is no DNA evidence that
links Anderson to the robbery; moreover, there were several people who had access to the
vehicle where the gun suspected to have been used in the robbery was recovered. Still, on the
uncorroborated word of one police officer, the primary suspect was cleared and Anderson
became the perpetrator. Thus, Anderson requests that the Court, at the very least, hold an
2

evidentiary hearing to help decide if his conviction for armed robbery and for possession of a
firearm are the direct results of the police's use of coercion, threats and promises to get him to
incriminate himself in this offense. Given the totality of the circumstances, Anderson requests
that his conviction be reversed.2
Before the trial court could consider admitting what purposes to be a confession, the
court must be satisfied that the statement was given freely, voluntarily, and not under any form
of duress, intimidation, menaces, threats, inducements or promises.3 When a defendant, desires
to make a statement during custodial interrogation, the State must prove that the accused was
advised of his or her Miranda rights and voluntarily waived those rights in order to establish
the admissibility of a statement4
Not only must the State show that the defendant was advised of his rights, but that the
defendant was responsive and aware of that was happening; however, when the ev idence shows
that the statement was the product of fear, duress, intimidation, threats or promises, a trial court
is constitutionally compelled to strike the statement and prohibit the jury from hearing the
contents thereof
Because there was so many obstacles in the investigation, the trial court should have
granted Anderson's motion to suppress immediately after hearing the audiotape of Anderson
being threatened by the detectives. Items were allegedly photographed, but the photographs
were conveniently lost. Hie contents of the vehicle was searched, but the actual owners of these
2 See generally. Stale * West. 408 So.ld 1302,1308 (La 1982).
3 See Stale * Lubaatrie, 96-2003 (La App. 4* Cir. 11/19/97), 702 Se.2d 1194, writ dmrnt 98-0250 (La.
6/26198), 719 So.2d 1048.
4 See Miranda v. Arizona, 340 U.S. 436,86S.CL 1602,16 LE42d 694 (1966).
3

items remain a mystery to this day. There were a number of people who may have had access to
the vehicle - not just Anderson. In essence, access to this vehicle was not limited to Anderson
or Bolden.
Threats were lodged against Anderson's girlfriend while he was in the interrogation
room. For Anderson, this is when he emotionally collapsed under the weight of realizing that
his girlfriend could also be falsely accused of this crime. He wept and the thought of his
girlfriend being matched away to jail while the State took custody of their child was too much
for him to handle.
The detectives told him how they found his fingerprints in Mr. Bennett's car, however,
Anderson's fingerprints were not found in his car. Anderson was told that the eyewitnesses
selected his picture during a photographic lineup - another lie. In fact, the eyewitness, Binder,
told detectives that the perpetrator had his hair in dreadlocks, but Anderson's booking photo
showed that he did not have his hair in dreadlocks. Anderson knew alt of this was not true, but
telling the truth did not matter to these detectives. It did not matter because Anderson was
simply trying to guarantee his family's safety. These detectives had the audacity to tell
Anderson that they would help his girlfriend, knowing that they were intending to fully
prosecute her for this offense. The detectives' method of interrogation was devised solely to get
Anderson to incriminate himself.
This entire investigation was constitutionally defective. The trial court erred in finding
that Anderson's statement was inadmissible in light of every deficiency listed above. Thus,
Anderson requests that his conviction and sentence be reversed on the grounds that the
evidence used against him should have been suppressed and declared constitutionally

inadmissible. Anderson was convicted because of his criminal past, not because them was
admissible evidence linking him to the robbery perpetrated against Mr. Bennett.
According to the Court of Appeals, Fifth Circuit, the United States Supreme Court has
long established the test to determine voluntariness:
Is the confession die product of an essentially free and unconstrained choice by
its maker? If it is, if he has willed to confess, it may be used against him. If it is
not, if his wilt has been overborne and his capacity for self-determination
critically, the use of his confession offends due process.5
The trial court did not conduct this view during the suppressing hearing. As a result, an
evidentiary hearing, at the very least must be ordered to determine if the procedural safeguards
established in Miranda v. Arizona^ the number have been contravened.

Claim No. 2: Anderson’s trial was rendered fundamentally unfair in violation of the Fifth,
Sixth, and Fourteenths to the United States Constitution.
The United States Supreme Court has “consistently and repeatedly reaffirmed that racial
discrimination by the State in jury selection offends the Equal Protection Clause.” 4 The
Supreme Court also said that a State “denies a black defendant equal protection of the laws
when it puts him on trial before a jury from which members of his race have been purposefully
excluded” 7 CXir system of justice affords every criminal defendant “the right to be hied by a
jury whose members are selected pursuant to nondiscriminatory criteria.” 3 Because of equal
5 Set/v. Comas, supra, (quoting) SetmeeMoth v. Bustamante, 412 U.S. 218.225-26.93 S.Ct 2041.2047.36
LE424S54 (1973).
6 Milter-Elv, Dretke, 545 U.S. 231,125 S.Ct. 2317,2319,162 L.Ed,2d 196 (quoting Georgia v. McCollum,
505 U.S. 42,44,112 S.Ct 2348,120 L.Ed2d 33.
7 Batson % Kentucky* 476 U.S. 79,85,106 S.Ct 1712,1716,90 CEd.2d 69.
8 U„ 476 U.&, at86-87; see also Martin v. Texas, 325 U.S. 398,403,65 S.Ct. 1276,1279,89 LEd. 1692
5

protection, every defendant has the guarantee “that the State will not exclude members of his
race from the jury venire on account of race, or on the false assumption that members of his
race group are not qualified to serve as jurors.»

9

In the process of choosing a jury, racial

discrimination not only injuries "the accused whose life or liberty” is to be decided; it also
affects the juror whose competence to serve was not based “on an assessment of individual
qualifications and ability” to consider die evidence presented at. trial impartially.10
Discriminatory jury selection cause damage to more than a criminal defendant and the
juror who has been dismissed because of their race. It affects the entire community and
“undermine[s] public confidence in the fairness of our system of justice u In Anderson's case.
the State peremptorily challenged and excluded one-hundred percent of eligible blacks from the
jury panel.
(A).

The State purposefully excluded all blacks from the jury contrary to the
Supreme Court's ruling in Batson v. Kentucky.

In the very first panel, the State used its peremptory challenged to exclude every
African-American prospective juror from the venire. The State removed Cheryl Ziegler, Jo
Torregmo, and Katherine Liehert. Anderson's trial counsel promptly objected and asked for “a
race neutral reason for [the] exclusion of each of the African American jurors” The State asked
the trial court if it believed that the Defense had made a prima facie case of discrimination. The
(1945).
9 M> 476 U.S., at 86; see also Norris y. Alabama* 294 U.S. 587, 55 S.Ct 579, 584, 79 LEd. 1074 (1935);
Neal y. Delaware* 13 Otto 370,397,103 U.S. 370,397,26 LEd. 567 (1881).
10 Id.* 476 U.S., at87; see also Thiel y. Southern P&ctftcCo.* 328 U.S. 217,223-24,66 S.Ct 984,987-88,90
LEd 1181 (1946).
11 M> 476 U.S., at 87; see also Ballard v. United States* 329 U.S. 187,195,67 S.Ct. 261,265,91 LEA 181
(1946); McCray v. New York, 461 U.S. 961,968,103 S.Ct. 2438,2443,77 LE42d 1322 (1983).
6

court responded that it did “appear [as if] there were three minority members of thejury” struck
by the State.

(1).

Hie State struck Cheryl Ziegler (“Ziegler”) for being afraid that “she would not

be paid while serving as a juror ” The State said Ziegler was a concern because she “may not be
focused on the case and that she may not want to be there.” Even so, the State's race-neutral
reason is unfounded. Ziegler did not say anything during voir dire that would cause concern
about her ability to serve as a fair and impartial juror to either the State or the Defense. In fact,
Ziegler said she would be an analytical juror who “would follow the rules,” and on a scale of
one-to-ten, she would be a “five” in terms of her willingness to serve.
There is a marked contrast between the State's concerns and Ziegler's. In response to the
State's comments, Anderson's trial counsel pointed-out that Ziegler's concern was about “losing
money, she said that she was willing to be here. She did not indicate at a later time, when asked
about her willingness to serve, that she was unwilling to serve because of financial hardship.
Neither the trial court or the State made any attempt to rehabilitate Ziegler although she
allegedly cause the State some concern. According to the court, Ziegler seemed concerned
about not being paid for her service. If the court observed this simple concern, then
rehabilitation would have been simple. At any rate, Ziegler did not give any impression of
partiality to the State or the Defense.12 It would have been easy to inform her that, if chosen,
she would be compensated for her service. She was not rehabilitated, however, because the
court believed that “the race neutral reasons given by the State [were] reasonable.”

12 See State v, McIntyre, 381 So.2d 408 (La 1980); State v. We&b, 364 So.2d 984 (La 1978); La C.Cr.R Ait.
797.
7

On the other hand, it appears as if the trial court was biased against Anderson. When
Anderson's trial counsel sought to remove prospective juror Jared Panics (“Panics”) for cause,
the court refused. Anderson's trial counsel informed the court that Panks “clearly stated that he
would hold it against [Anderson] if he did not testify” The State intervened and told the court
that Panks had been rehabilitated when the court questioned him after the Defense's voir dire.
The court sided with the State and denied the cause challenge.
The court's rehabilitation of Panks was simple; and, the very thing done with him could
also have been done with Ziegler:
Mr. Panks ... expressed concerns about the fact that the defendant might net
testify in this case. And the law is that if the defendant does not testify in this
case, you cannot hold that against him. So Mr. Panks are you going to be able to
do that and act as a fair and impartial jury?
Panks answered in the affirmative and was immediately deemed rehabilitated. There is a
remarkable difference in how the court handled prospective jurors Panks and Ziegler. With
Panks, the court observed he was in need of rehabilitation, exercised its discretion to remedy
the matter. The same, however, is not true concerning Ziegler.
In the matter concerning prospective juror Panks, Anderson's trial counsel asked the
court to note the Defense's objection for the record, she still failed to articulate her reasons for
objecting. However, it will be fairly articulated here. It does not appear fair that the court took
its time to rehabilitate a prospective juror who happens to be white and is clearly biased against
Anderson; but then utterly fails to rehabilitate a prospective juror who happens to be black and
clearly stated that she “would follow the rules.” It is not fair, and it violates Anderson's equal
protection and due process rights.

8

(2).

The State struck Jo Torregano (“Torregano”) because she allegedly “had a

number of issues, including that she said that die was more of an emotional decision” maker. A
careful and honest look at Torregano's responses during voir dire cast serious doubt on the
State's excuse for removing Torregano from the panel. Torregano's responses were anti-Defense
and pro-State; however, it was not enough to stop the State from mischaracterizing Torregano's
remarks. The State sard that Torregano did not want to be there and that die clearly did not
want to take part in the trial process. However, the State foiled to mention that Torregano said
she is biased toward guns, and that she does not “like them in the house ... even if they are put
up.” If considered honestly, Torregano's responses during voir dire makes it clear that the State
dismissed her from the jury because die is blade. Torregano's responses reveal that die was
inclined to be more sympathetic to the State's case than Anderson's defense.
(3).

The State struck Katherine Liebert because “she made a comment about the mis-

ID. That everyone says they lock the same. And die believes that people are convicted by
misidentification. Liebert's concern was valid and relevant. She should not have been removed
from the panel because die was concerned about the possibility that Anderson would be
convicted because he is black.
The State's reason for driking Liebert from the panel was not race-neutral. Liebert was
concerned that Anderson would be convicted because he is black. The State did not want to
have Liebert rehabilitated became the prosecuting attorney did not want any blades on the jury.
Especially when a black prospective juror expressed concerns about a racist astigmatism that
cause all black folk to look alike to some white folk. Even if Liebert's opinion is wrong, the
court or the State should have asked her if she would have a problem returning a guilty verdict
9

if the State met its burden of proving beyond a reasonable doubt that Anderson committed the
instant offense. Although the trial court and the State rehabilitated other prospective jurors who
happened to be white, the same was not dene with Liebert. It appears that the State did not
want Liebert rehabilitated because die is black. It is as Anderson's trial counsel told the court:
the State's reasons for striking prospective jurors Ziegler, Torregano, and Liebert sue not
“adequate basis to excuse the pattern and practice of excluding African American jurors from
the potential jury” Although there were not any blacks on Anderson's jury, the court still
excused the State's prejudicial practice:
The Court has viewed each of these parties that were struck by the State. Ms. Ziegler,
when she made that comment about the fact that die would not be paid, seemed very concerned
about that. Ms. Torregano did indicate that she would not want to decide someone's face [sic]
fate. She also indicated that she had difficult with weapons. And had concerns about weapons.
The Court feels that the race neutral reasons given by the State are reasonable in their decision
making. And is going to deny the Batson challenge.
(B).

The court's decision to deny Anderson's claim fails to satisfy Batson's third and
final step.

Batson has three well-defined steps. The first step requires the defendant to make “a
prime facie showing that the prosecutor exercised a peremptory challenge on the basis of race.”
Once the prima facie showing has been made, the second step requires the State “to present a
race-neutral explanation for striking the juror in question,” and the reason cannot be 'inherently
discriminatory.*” Baisorts third and final step requires the trial court to “determine whether the
defendant has established purposeful discrimination.» 13
13 State V. Jacobs?, 07-887, (La. App. 5* Cir. 5/24/11), 67 So.3d at 544-555 (citing Batson v. Kentucky, 476
10

In the inrtant case, the court's scrutiny of the State's explanation for peremptorily
striking every black person from the jury panel was cursory. Also, the court failed to address
tile State's reasons for striking prospective juror Katherine Liebert. There were only three
blacks on the panel to begin with the State struck all three. The court did not evaluate the
State's demeanor and neither did it determine if the State was being intentionally discriminatory
or “whether the juror's demeanor can credibly be said to have exhibited the basis for the strike
attributed to the juror by the prosecutor.14
Sadly, Anderson is a victim of a system that has been disenfranchising blacks for
centuries. It is not an uncommon practice in Louisiana that blacks are systemically struck from
juries. According to the United States Supreme Court, “Determining whether invidious
discriminatory purpose was a motivating factor demands a sensitive inquiry into such
circumstantial and direct evidence of intent as may be available.» 15
In Hunter v. Underwood, the Supreme Court affirmed the Eleventh Circuit's dissolution
of an Alabama law that disenfranchised persons convicted of certain misdemeanors. The Court
concluded that although the law was facially neutral with respect to race, it still violated equal
protection because it was passed in the Alabama Constitutional Convention of 1901 and “was
part of a movement that swept the post-Reconstruction South to disenfranchise blacks and, at
which, the zeal for white supremacy ran rampant.” 16 The Supreme Court also held in Stnmder
U.S., at 96-98,106 S.Ct. at 1723 1724.
14 See

v. Shannon, 10-580, (La. App. 5* Cir. 2/15/11), 61 So.3d706,719 (internal citations omitted).

15 Village ofArlington Heights v. Metropolitan Housing Development Corp., 429 U.S. 252,266,97 S.Ct 555,
50 L.Ed.2d 450 (1977).
16 Hunter ?. Underwood* 471 U.S. 222,229,105 S.Ct 1916,85 L.Ed.2d 222 (1985).
11

v. West Virginia, that the Fourteenth Amendment prohibits states from excluding persons from
jury service based upon race.17 It was against this backdrop and “a desire of Louisiana's
reactionary oligarchies to disenfranchise blacks and poor whites, [that] prompted the
Constitutional Convention of 1898.”18
The 1898 Constitutional Convention was designed to produce a constitution that would
entrench white power once and for all. Sweeping changes to election laws were passed
immediately prior to the convention. The effect was that when the people were asked by
referendum to vote on whether to have a Constitutional Convention and to nominate delegates,
black voter registration had dropped by ninety percent. As a result of this legislative
disenfranchisement, the 134 delegates at the 1898 Convention were all white and the resulting
constitution was ratified without being submitted to a popular vote. As in Hunter, the historical
background of die offending Louisiana law clearly demonstrates discriminatory intent.
The United States Constitution requires that Anderson be afforded protection against
discrimination from the St. Tammany Parish District Attorney's Office. The Fourteenth
Amendment to the United States Constitution prohibits the State from creating a "jury list
pursuant to neutral procedures but then resort to discrimination at 'other stages in the selection
process.«

19

Anderson’s claim is not only meritorious, it also qualifies as a. structural error. In

M31er~El, the U.S. Supreme Court said:

17 Strauder * West Virginia, 100 U.S. 303,10 Otto 303,25 L.E& 664 (1880).
18 See Lanza. Michael L, “Little More Than A Family Matter The Constitution of 1898” In Search of
Fundamental Law. pp. 93-109.
19 At, 476 U.S., at88, (quotingAvoy v. Georgia, 345 U.S. 559,562,73 S.Ct. 891,893,97 LEd. 1244 (1953)).
12

A. Batson challenge does not call for a mere exercise in thinking up any rational
basis. If the stated reason does not hold up, its pretextual significance does not
fade because a trial judge, or an appeals court, can imagine a reason that might
not have shown up as false,20
Because of the State's purposeful discrimination against African-American prospective
jurors during jury selection, and the court's failure to completely follow Baton's three step
analysis, Anderson is entitled to a new trial.

Claim No. 3: Anderson's trial was rendered fundamentally unfair as a result of
prosecutorial misconduct, in violation of die Fifth, Sixth, and Fourteenth
Amendments to the United States Constitution.
The United States Supreme Court has several times underscored the “special role played
by the American prosecutor in the search for truth in criminal trials” 21 Sadly, before
Anderson's trial ever began, assistant district attorney Jason Cuccia revealed that his interest
was not that justice should be done but that Anderson be convicted at any cost.
In Anderson's case, the State wrangled a conviction without the evidence that was
supposedly obtained and some that was allegedly viewed by investigators. The State's alleged
“evidence” was never presented to the jury and over Anderson's trial counsel's objection, the
State was allowed to present a case based on speculation and hearsay. As a result, Anderson
was denied his constitutional right to a fair and impartial trial because die court allowed the
State to circumvent justice by presenting its theory to the jury unsupported by any tangible
evidence.

20 Miikr-El v. Dreike, 545 U.S., at 252,125 S.Ct, at 2332.
21 Banksv. Dreike, 540 U.S. 668,696,124 S.Ct. 1256,1275,157 L.Ed.2d 1166 (2004).
13

In this case, ADA Cuccia's unprofessional behavior, lack of concern for justice, and his
total disregard of Anderson's rights caused Anderson's trial counsel to render ineffective
assistance in her preparations to defend Anderson in this case. The State's allegations to the jury
that Anderson was the person who assaulted and robbed the victim in this case was not
supported by any of the evidence presented. On the other hand, ADA CUccia consistently
proved he would go to any length to trample on Anderson's due process and equal protection
rights.
Comparatively speaking, under Brady, due process is violated when evidence that is
favorable to the accused is withheld from him.22 In this case, the State consistently presented
testimonial evidence about physical evidence that, for some reason or another, it did not present
to the jury. Evidence is considered to be material “if there is a reasonable probability that, had
the evidence been disclosed to the defense, the result of the proceeding would have been
different.23 The is&ie here, again, is not Brady per se; however, the State was allowed to point
the jury to evidence it did not actually possess. In Kyles v. Whitley, “[t]he question is not
whether the defendant would more likely than not received a different verdict with the
evidence, but whether in its absence he received a fair trial, understood as a trial resulting in a
verdict worthy of confidence. A 'reasonable probability' of a different result is accordingly
shown when the government's evidentiary suppression undermines confidence in the outcome
of the trial "M
22 Brady v. Maryland, 373 U.S. 83,87,83 S.Ct 1194,10 L.EdL2d215 (1963).
23 Untied Statesv. Bagley, 473 U.S. 667,682,105 S.Ct. 3375,87 L.Ed.2d 481 (1985).
24 Kyles y. Whttefy, 514 U.S. 419, 434,115 S.Ct. 1555, 131 LEd2d 490 (U.S. La. 1995) (citing Bagley, 473
U.S.,at687).
14

The evidence ADA Cuccia claimed he had a right to parade to the jury was material to
the Stale's case. Without the so-called evidence the State kept telling the jury about, the case

against Anderson could not have been made; thus,, ADA Cuccia should have been precluded
from mentioning any alleged evidence that was not preserved for the Defense or the jury to
inspect. To support its use of referencing the elusive evidence, the State rested heavily on the
forced and coerced confession Anderson gave to officers after being verbally abused and
threatened. The police also threatened Anderson's girlfriend and her child to coax a confession
out of him. The physical evidence does not support Anderson's confession. In light of the
evidence presented, Anderson's confession seems to be immaterial. Speaking of materiality, the
Supreme Court said in.4gttrethat:
The proper standard of materiality must reflect our overriding concern with the
justice of the finding of guilt. Such a finding is permissible only if supported by
evidence establishing guilt beyond a reasonable doubt. It necessarily follows that
if the omitted evidence creates a reasonable doubt that did not otherwise exist,
constitutional error has committed. This means that the omission must be vacated
in the context of the entire record. If there is no reasonable doubt {bout guilt
whether or not the additional evidence is considered, there is no justification for a
new trial.25
Because of sloppy police work and the questionable tactics of the prosecution team, the
so-called evidence allegedly recovered by the State was not available at trial. In feet, one item
of evidence actually recovered was a video depicting the incident and it does not readily
identify Anderson as the perpetrator. On the day of trial, Anderson's trial counsel announced
that the Defense was ready. The court however said that there were "a number of motions in the
matter that were fried,” and that it “would like to discuss ... the supplement request and motion
for discovery, disclosure, and inspection ”
25 UtltiM States v. Agars, 427 US. 97,112-13,96 S.Ct. 2392,49 LE<L2d 342 (1976).

15

Anderson's trial counsel, knowing the unethical dealings of the prosecution in this rase,
told the court that she filed “a formal motion [to follow] informal conversations had with the
district attorney's office. The following ensued:
DEFENSE: I had a pretrial conference with Mr. Cuccia regarding this evidence. And it was
indicated to me that these items did not exist or were not preserved, but that it
was their intention to seek to elicit testimony regarding the viewing of some of
these items. In response to that, we did file the formal motion and order to have it
placed on the record that such items did not exist.
STATE:

And Your Honor, as the Court is aware of the time that Ms. Brink and I had our
informal conversation, we did not have any of those items. Since that time, as a
matter of fact yesterday, we were able to locate the surveillance video from the
Wal-Mart parking lot. And we have provided that to defense counsel as of this
morning. As far as the other items that are outstanding, or at least that are
requested in that, the State does not have them. And is unable to produce them to
them at this time.

COURT:

So of the seven items on the supplemental request, the only items that you have
located would be the videotapes from the Wal-Mart parking lot?

STATE:

Correct.

The trial court ignored the significance of counsel's request to forbid the State from
using the remaining six missing items ofevidence. The State did not have the evidence and was
therefore unable to produce it to the Defense. The court's “understanding that [the defense was]
providing open file discovery1 does not amount to much; especially when what was still
missing was the nature of counsel's motion. The State's claim that it provided Anderson's trial
counsel with everything in the district attorney's file cannot satisfy due process because the
State used as evidence information that is not supported by anything in the district attorney's
file. ADA Cuccia used against Anderson what he called evidence without being compelled by
the trial court to produce that evidence. This was a violation of Anderson’s due process and

16

equal protection rights and served to ensure that, he would not receive a fair trial.
With the trial court’s blessing, the State presented hearsay testimony to the jury which

was not supported by any physical evidence. Hie testimony offered by detectives, that they
personally viewed items of evidentiary value which inculpated Anderson was highly
inflammatory, prejudice, and completely undermined the fair administration ofjustice;
DEFENSE: It would be hearsay to testify as to what would be viewed on a picture or videos
that were not produced to us. We cannot effectively cross-examine about what an
officer said that they viewed, when they didn't preserve that evidence for our
review.
STATE:

That is like you cant, a witness can’t come in and testify what they observed in
person because you can't cross-examine them about what they observe. Frankly,
that's a little bit of an inconceivable argument. The officer observed the
videotape. He can testify what he observed on the videotape. And the crossexamine allows them to traverse that officer or that witness's credibility about
their observations.

The State's argument is contrary to law and undermines Anderson's due process and
equal protection rights. It is constitutionally unfair to allow police investigators to come into
court and testify about seeing physical evidence without preserving it. As it stands, it is the
word of a convicted felon against the word of the State. It is an inescapable fact that the State's
word carries more weight than Anderson's word with any court. Although it is said that the
State has a heavy burden of the criminal defendant, on the other hand, is much heavier.
Anderson's credibility, when weighed against that of the prosecution team, is virtually non­
existent. It matters little if he is actually innocent or not. The only time ADA Cuccia wanted the
court to believe anything Anderson said is when he inculpated himself as a result of threats,
intimidation, coercion, and the false promises of detectives who haphazardly “investigated" this
matter. The weight given to the State's credibility with the court can be glimpsed from the
17

court's erroneous ruling concerning Anderson's trial counsel's motion in limine and
supplemental discovery:
As to the motion in limine, if the State would locate any additional items, we will
have a hearing on whether or not they will be admissible. As to the witness
testimony, make the proper objection at the time the witnesses testify.
As to the supplemental request and motion for discovery. I'm going to allow the
State to use die videotapes that have been provided to you from the Wal-Mart
parking lot. As to any other item, again, if the State would locate any of those
items, we will have a hearing to determine whether or not they will be admissible.
This was the first day of trial. Because the Stale located the video footage of the WalMart parking lot before trial began, is not issue. However, allowing the State to introduce
“witness testimony” not supported by any evidence is contrary to law and is at issue. The court
knew the witnesses were law enforcement and therefore should not have allowed them to
testify to unsubstantiated allegations. This clearly prejudiced Anderson in the presence of the
jury and cannot be said to not have contributed to the verdict.
The State knew the interview conducted with Anderson was unprofessional; even so, to
justify the unlawful tactics of the detectives, the State named the interrogation:
Now when you listen to that interview, it's going to be an aggressive interview
style.. It is going to start of [sic] pretty peaceful. You are going to hear that he is
read his Miranda rights. And are you going to hear that things start off pretty
lightly to say the least.
Now, this interview is going to become loud and boisterous. There's going to be a
lot of cussing on it, from both sides. So folks, be prepared when that comes up.
The State know the police dropped the ball during their investigation, that is why ADA
Qjceia conceded to the jury that the way the police handled this case was sloppy and
unprofessional. In fact, ADA Cuccia wished he could tell the jury that "There [was] a lot more

18

follow up than this. Frankly, there wasn't.” This is what makes this case so frightening - the
State barely had a circumstantial case against Anderson. Considering that the police suspected

another person of committing this crime and that person was ruled out as a suspect on the word
of one police officer without any verification, it is suspect that Anderson conveniently fits the
description of the unidentified perpetrator of this crime.
Considering the testimony of John Binder, it becomes even clearer that Anderson was
not the person who robbed the victim in this case. Binder said he witnessed “a short black man,
standing with a car door open.” Binder went on to say that the perpetrator was "maybe fivefive. Kind of on the shorter side for a male.” Anderson, on the other hand, is approximately five
feet, and ten inches tall.
Binder was an eyewitness to the robbery. He told the jury that he "could clearly see
because there's a light pole near by.” However, when the State asked Binder could he "make an
identification of the black male,” he answered, “No.” ADA CUccia’s goal to win at any cost was
seen with the next question. He asked Binder if it was because he was “to far away? Why is it
you are unable to make an identification?11 Binder answered:
It was because when we were driving past, I didn't look until I had seen the
broken glass.. By that time, I can only see the back of the man. I described him to
the police just from the back ofwhat I saw.
Binder's answer to the State's leading question does net negate the fact that Anderson
does not fit the physical description of the perpetrator. In fact, on cross-examination. Binder's
description of the assailant wavered. After telling the jury that the person who robbed the
victim in this case "looked like a darker black male,” Binder hinted that he may have made a
mistake "because it was night time.” Even so, it must not be forgotten that Binder testified that
19

he observed the robbery clearly because of a light-post in the parking lot.
(A).

Hie State allowed Detective Robert Chadwick (“Chadwick”) to lie to the jury when he

said (hat Vincent Navarre was not really a suspect at tlie time because the primary suspect was
“Ms. Laura Bolden's boyfriend, which was Cartel' Anderson.” This testimony contradicted
Detective Daniel Suzeneaux's testimony that Anderson was not die primary suspect at the
beginning of the investigation. Chadwick also told the jury that the police took pictures of
Anderson's girlfriend's vehicle for evidentiary puiposesr, however, Chadwick said Hie pictures
could not be turned over to the Defense because they were lost. Not only did Chadwick admit
the pictures were lost, he also slid that the police had not. “been able to find those photographs
since they were taken .”
Chadwick was asked on cross-examination did he personally locate anything of
evidentiary value in the vehicle. He answered that he “was present when items were found.”
Still, none of the items made their way to trial. The State had a burden of proving guilt beyond
a reasonable doubt, but since the alleged evidence was not preserved, the State's burden was
alleviated because officer's of the law swore they had seen evidence incriminating Anderson they just conveniently failed to preserve it.
During the redirect examination of Chadwick, it seems as if ADA Cuccia became upset
and said that “since we all kind of beat around the bush, may as well have it out.’' He adted
Chadwick what “were the items of evidentiary value that were recovered from the vehicle'?”
Chadwick answered:
From the trunk of the car. Detective Brown and I found a silver revolver, .357
magnum, Smith and Wesson. That item appeared to have some type of reddish
brown substance on it. It was located in a black bag, duffle bag, small duffle bag.
20

In the passenger compartment, there was a server book for Longhorn Steakhouse.
Inside it was a traffic ticket issued by the St. Tammany Parish Sheriffs Office.
And the name on the traffic ticket was Carter Anderson.
For a person who was not. personally involved in the search, Chadwick gave great, details
about die elusive evidence. Also, when he first began to say what was found he said, ‘Detective
Brown and I found.” Chadwick lied wider oath, worse still, the State knew he was lying.
Evidently, winning was more important to ADA Cuccia than Anderson's right to a fair trial.
(B).

Hie State continued to solicit testimonial evidence that amounts to nothing more than

unsupported hearsay. Detective Daniel Suzeneaux (“Det. Suzeneaux”) was called as a witness
for die State. It quickly becomes apparent that the State wanted the jury to believe that, there
was a legal reason the alleged evidence against Anderson was not preserved:
STATE:

And Detective, after you viewed die video surveillance from the apartment
complex, were you able to download that data and take it - to preserve for
evidence?

WITNESS; No, we were not. And what was happening, literally, as we’re watching the
video at the apartment complex, Detective Chadwick is pinging the phone.
So this is a very fast-paced investigation at this point. When we got in
touch with die apartment manager, he did not have the knowledge on how
to operate this system. And it was a system that we weren't familiar with as
well. After we viewed the video, we made an attempt at that point to try to
download it onto a CD or a JumpDrive. We were unable to do so because
Detective Chadwick came and said: Hey we know where the phone is, it's
at this house. So we all left the apartment complex, went to the house
where we ended up finding the suspect. And we never went back to
retrieve the video from the apartment.
STATE:

Now, Detective, were you able to make an identification of the person who
dropped that car at the apartment complex from the video?

WITNESS: We weren't able to make a positive ED. It wasn't a crystal clear picture, you
know here's the guy who did it. We were able to get a general idea -

21

zz
jo soussaid sip ui pszqEqjsA ussq SABq pu pjnoqs suoqdiunssB s,sAips)sp sqx lusip mop piq
pus ubj (uosjspuy) sq ‘seaa uosjspuy sjsijal ssnoq o) joop sip uo psqoouq soqod sip usqAt pip
uisip ppj an puiui siq psssojo jsAspqAi £mf sip qs) o) psAuqp seal xnBSUSzng jsq
spiqsA sip
jo po umojip sbai pip SuiipAue uiBjqo o) s|qB sism. [Asqj] sjojsq psqchus sbm. Ajspunjiojun,,
jspdujnp sip pq js?sduinp b o)ui sius)i Suidump uosjspuv spidsp ‘psonpojd jsasu
sbal pqi ‘ospiA b

pip psiji)ss) xroesuszns pa unq mop uoisssjuoo b psojoj ^pBUoprpipuooun

soqod sq) /ujal si siqx uoiqsBj siuos ui )so| jo psfCojpsp sbai uosjspuy )SUIb8b souspiAS
sb

psjspisuoo SuiipA»As )souify ssop )i pip SuiAOid jo uspjnq sip SABq pu )nq spixs

SOllSpiAS ifes O) S)B)g 3ip JOJ )US1USAUOO /USA SI )| <)USAS /lUB UJ )l SAJSSSjd O) £bM. B pUUOJ
SABq pjno& Asip jopjpdisd sip seal uosjspuy usACud SABq ppoo pq) souspiAS psusAoasip
A|]bsj soqod sip pBjj ospiA sip sAsipsj oj puiqsq psifops SABq pjnoo ssAipspp sip jo suo )sbs|
p pip JSpiSUOO USAS O) pSJIBJ JinOO sqx ^BSJBSq pu seal )i pip piBS puB sp)g sip ipi al pssj§B
puE uoipsfqo sjssunoo psjrmsAo ‘jmoo sqx <pip joj uoippunoj sip Ab| ubo j juswdinbs
ospiA jo sosid pip uaio pu pip Asqx jopuoo Jisip jspun pu si ospiA sq) ssnsosq sjsq £]dde
pu ssop souspiAS o) |BuopB|sii03 psAJSscjo sq pqM. Kposjip Suites sh A«sjBsq pu sbm. p
uopBAissqo siq„ )iuxp Sui/Cjqss) sbm. xmssuszng pa souis pip jmoo sip pjo) sp)g sqx
s)q§u uoipspjd jBnbs puB sssoojd snp sposjspuy uo sjdiuBj) pus soipnf psAumojp
o) sp)g sip psAuqp pip jmoo sqx c;&BSJBsq jo sjupu sq) ui sq pjno&L sjsip uo psAJSsqo,,
xnBsuszng jsa §uiq^ue pip jmoo sq) p]0) KjspmooB jssunoo Jssusjsa sqfl

pQMSiA sq

puuBo puB psAisssjd pu sbai ospiA pip sows sdspspiA pip uo psAisiA A]psSs||B sq SuiipCuB,,
)noqE Sui^qiss) xnBsi»zng jsa °1 uoipsfqo ub ipiAips)dnus)Ui jssunoo |BU)siuosjspuy

the jury. The detective cannot truthfully say Anderson ran and hid, especially when he could
not see through walls or the door. Det. Suzeneaux also told the jury that since the victim was

robbed, Anderson's appearance had changed because he “did not have glasses, did not have a
beard, and he had short dreads.”
Concerning the statement Anderson was forced to make, the State asked Det. Suzeneaux
if at “any time did [he] or Detective Irwin force or coerce Mr. Anderson into giving that
statement?" Of course, Det. Suzeneaux answered, “No, sir. He did so on his own free will.”
Simply said, Det. Suzeneaux lied under oath. The polite were frustrated because the parson
who senselessly attacked the victim eluded capture. Anderson was convenient. His arrest
history and past convictions made it east for him to be charged with this senseless crime. After
all, it was the word of law enforcement officers against that of an ex-felon. Because of his
colorful past Anderson thought that he should cooperate with the police; however, he did not
underhand that he would become the scape-goat. That is why he waived his right to have an
attorney present. He was not seeking to confess to a crime he did not commit. Anderson
believed he would be able to clear his name by making himself available to the authorities.
Anderson respectfully asks the Court to consider something that suspiciously stands out
as strange. The detectives allegedly .saw video footage of the perpetrator of this crime. They
also came into contact with Anderson and did not think or believe that he was their suspect.
Only after meeting him at the beginning of their investigation did Anderson become a person of
interest. He was still not considered as the suspect.
Anderson's trial counsel questioned Det. Suzeneaux concerning the lies he told
Anderson. Det. Suzeneaux claimed that it was his lying that helped Anderson; however, he did
23

not say how having a man convicted and sent to prison for the rest of his life for a crime he did
not commit is helping him. In fact, Det. Suzeneanx went on to tell counsel something very
telling. He said-. “Well, if you remember, in the beginning stages of this investigation, Mr.
Anderson was not the primary suspect we were looking at until we discovered further on that
he was the primary suspect” Stilt, how Anderson was discovered to be the primary suspect was
never disclosed.
Det. Suzeneaux went on to confess that the police investigation was sloppy, and that
they did not property collect any evidence. Even if Anderson's confession was knowingly or
voluntarily given without force, threat, or any intimidation; the investigators still had a duty to
collect and preserve the evidence. It is not unheard of for some to confess to a crime they did
not commit; even so, there must be a factual basis for any admission of guilt. In this case,
Anderson was prejudiced because no one wanted to believe that he did not have anything to do
with this robbery because of his past convictions. On the other hand, the police fabricated lies
that are unmistakably obvious and Anderson was still denied the benefit of reasonable doubt.
Without any corroborating evidence, Anderson's statement is not enough. Other than the false
confession, there is no evidence linking Anderson to the robbery of the victim in this case:
STATE:

Now, Detective, while we are on the subject of video we earlier discussed
the video from the apartment. While you were trying to begin to retrieve
that, you got called out to the house on Cousin Street. Was any attempt
made to go back and retrieve that video?

WITNESS: Yes, sir. We attempted - like I said before, we could not do it at the time.
And just so you guys know, after the confession was received from Mr.
Anderson, and we were confident that we had the right suspect in custody
- it's an unfortunate thing, but as a lesson learned on my end, we did not
tie up the loose ends of getting the video from the apartment complex,
didn't happen. I apologize for that. And it's something that, you know.
24

obviously, from sitting in this spot two years later, you wish you would
have done. But, unfortunately with it being a holiday season and as busy
as we were, it dicti't happen that way.
This forther enforces that Anderson's arrest, prosecution, and sentencing was not done
according to law. His right of due process and equal protection rights were trampled and the
prosecution team's behavior was excused because the police had a busy season. The police was
so busy that they even forgot to conduct any type of identification procedure with the victim in
this ease. Amazingly, Anderson was identified by the victim in open court even after his
appearance, according to Det. Suzeneaux, had drastically changed.
The State knew this case was hopeless. The only way to secure a conviction was to
circumvent the demands of justice. The State also knew that the alleged evidence was lost or
missing. Det. Suzeneaux even told the jury that the photographs taken of the victim's vehicle
were lost. ADA Cuccia is obviously an intelligent person; however, justice demands fairness.
This case only shows how shrewd ADA Cuccia was in tarrying out this unfounded prosecution.
A colloquy between Anderson's trial counsel and Det. Suzeneaux reveals that the State knew
this case was tainted from the beginning:
DEFENSE: Same with the search warrant, execution of the search warrant on the
vehicle where the gun allegedly was found?
WITNESS: Yes, ma'am.
DEFENSE: Photos were taken?
WITNESS: Yes, ma'am.
DEFENSE: But. they were lost, also?
WITNESS: Yes, ma'ain. Just so you know, I ’was not. present for that.

25

DEFENSE: But you were the supervising detective?
WITNESS: I wouldn't call me a supervisor but ultimately it’s my case, yes.
DEFENSE: So the ultimately pieces of evidence here in this case that are still in
existence are die statement we are listened to?
WITNESS: Yes, ma'am.
DEFENSE: Now, telling Mr. Anderson that you had fingerprints on a gun, that
was a little infoimation right?
WITNESS: Yes, ma'am.
DEFENSE: That, was faJ se?
WITNESS: Absolutely.
DEFENSE: So that was lie to get. him to confess?
WITNESS: I wouldn't call it a lie.
DEFENSE: Did you have fingerprints on the gun?
WITNESS: No, ma'am. But may I add something to that?
DEFENSE: It's a yes or no answer.
The State objected to counsel's response and the court sustained it. Even more troubling
though is that the court allowed the detective to explain jurisprudence to the jury:
The US Supreme Courts allows us to He to suspects, give them pieces of information that might
not be fully accurate, like we have DNA, we have fingerprints, to see if their response is
consistent with Hie evidence we realty do have, to see if there's anything more that will come
out of that response from the suspects. So inference to that, yes, we did tell him we had his
fingerprints when we did not.

26

Det. Suzeneaux admitted at trial that he lied about everything he told Anderson. He lied
about the fingerprints on the weapon and from the victim's vehicle. The only thing Det.

Suzeneauz admitted to having by way of evidence was Anderson's coerced statements. Surely,
ADA Qiccia knew the detectives were lying before he chose to prosecute this matter. The
officers in this case are comparable to those in Spmto v. New Ibrk. They “were rather
concerned primarily with securing a statement from defendant on which they could convict
him. The undeviating intent of the officers to extract a confession from Petitioner is therefore
patent. When such an intent is shown, this Court has held that the confession obtained must be
examined with the most careful scrutiny, and reversed a conviction on facts less compelling
than these » 26
The one piece of evidence allegedly connecting Anderson to the gun found in the
vehicle searched by police is also conveniently missing - a traffic citation in the vehicle
allegedly issued to Anderson. Again, this missing piece of evidence was not physicaUy
presented to the jury; even so, the jury still heard all about it.
“A district attorney should not harbor any personal feelings toward an accused that
might, consciously or unconsciously, impair his ability to conduct the accused's trial fairly and
impartially” because “[i]n our system ofjustice, we intrust vast discretion to the prosecutor in
deciding which cases to pursue, whether to dismiss the charges, whether to offer a plea bargain,
what any plea bargain will entail, and how the trial will be conducted.”27

26 spam % New York, 360 U S. 315,324,79 S.CI. 1202,1207,3 LE42d 1265 (U.S. NY 1959)
27 State r. King, 06*2383, (La. 4/27/07), 956 So.2d 562,570; quoting In re Toups, 00-0634 (La. 11/28/00), 773
So.2d7G9,715.

27

It is also well established that “a conviction obtained through the use of false evidence,
known to be such by representatives of the State, must fall under the Fourteenth Amendment.
The same result obtains when the State, although not soliciting false evidence, allows it to go
unconnected when it appears.»

28

The rule forbidding the State's use of “false evidence,

including false testimony, to obtain a tainted conviction, implicit in any concept of ordered
liberty, does not cease to apply merely because the false testimony goes only to the credibility
of the witness” This is because the “jury's estimate of the truthfulness and reliability of a given
witness may well be determinative of guilt or innocence, and it is upon such subtle factors as
the possible interest of the witness in testifying falsely that a defendant's life may depend ”
It does nc4 matter if “the falsehood bore upon the witness' credibility rather than directly
upon the defendant's guilt. A lie is a lie, no matter what its subject, and, if it is in any way
relevant to the case, the district attorney has the responsibility and duty to correct what he
knows to be false and elicit the truth.” 29 Even if the “di&rict attorney's silence was not the
result of guile or a desire to prejudice matters little, for its impact was the same, preventing as it
did, a trial that could in any real sense be termed fair,w 30 Consequently, Anderson is entitled to
a new trial “if false testimony could, in any reasonable likelihood have affected the judgment of
the jury.

3!

28 Napae v. People efState ofIllinois, 360 U.S. 264,269,79 S.Ct 1173,1177,3 L.Ed.2d 1217 (1959).
29 M; quoting People v. Smvtdes, 1 N.Y2d 554,557,154 N.Y.S.2d 885,887,136 N.E.2d 853,854-55.
30 Id.
31 GtgRv v. United States, 405 U.S. 150, 154, 92 S.Ct. 763, 766, 31 L.Ed.2d 104 (1972); citing Napue v.
People ofState ofIllinois, 360 U.S. 264,271,79 S.Ct 1173,1178,3 L.Ed.2d 1217 (1959).
28

Claim No. 4: Anderson was denied the effective assistance of appellant counsel in violation
of the fifth, Sixth and Fourteenth Amendments to the United States
Constitution.
Appellant counsel, Prentice L. White (“Mr. White”) filed Anderson's direct appeal,
raising only one issue:
The district court's ruling which denied Anderson's motion to suppress was
completely erroneous and violated his right to a fair and impartial trial under the
Sixth Amendment to the United States Constitution. During this investigation, the
detectives used every conceivable tactic it could to get Anderson to implicate
himself in this robbery. These detectives yelled, cursed, lied and even threatened
Anderson's family in order to get him to incriminate himself in the robbery. Such
tactics are totally unconstitutional and any incriminating evidence derived
therefrom must be declared inadmiss[i]ble.
Mr. White failed to brief Anderson's claim of purposeful discrimination to the appellate
court on direct appeal. Anderson is not suggesting that the issue raised by Mr. White was net
important but a successfully litigated Batson claim is a structural defect that is too important
not to be raised on direct appeal. Mr. White's failure to raise the fact that the State purposefully
discriminated against every African-American prospective jurors in this case and the trial
court's failure to follow Batson's three steps is proof that he did not make a complete,
conscientious, and thorough review of the appellate record. Had he done so, he would have
briefed Anderson's Batson claim. Mr. White's direct appeal brief shows that he raised the issue
that was most prominent on the face of the record, and that he failed to “act in the role of an
active advocate in behalf of his client, as opposed to that of amicus curiae.» 32
The Louisiana Supreme Court has said that a brief filed by counsel must not only review
the procedural history of a case and the evidence presented at trial. It must also provide “a
32 Amtersv. Catyfn0a>386 U.S. 738,744,87 S.Ct. 1396,1400,18 L.Ed.2d493 (1967).
29

detailed and reviewable assessment for both the defendant and the appellate court of whether
the appeal is worth pursuing in the first place.33
A counsel's performance on appeal is judged under the two-prong Strickland test” To
be considered as effective on appeal, an appellate counsel is not required raise every nonfrivolous issue.35 However, it does mean, as it does at trial, that counsel perform in a reasonably
effective manner.36 The appellate lawyer must master the trial record, thoroughly research the
law, and exercise judgment in identifying the arguments that may be advanced on appeal.??

37

“In searching for the strongest arguments available, the attorney must be zealous and must
resolve all doubts and ambiguous legal questions in favor of his or her client ”38

Claim No. 5: Anderson was adjudicated a third felony offender in violation of the Fifth,
Eighth, and Fourteenth Amendments to the United States Constitution.
In denying this claim. The trial court opined that Anderson's motion to correct an illegal
sentence was untimely; however, under La. C.Cr.P. Art. 882, an illegal sentence may be
corrected at any time by the court that imposed the sentence. Also, under La. C.Cr.P. Art. 881.5,
a defendant's motion to correct a sentence that exceeds the maximum sentence may be filed at
any time.
33 State ft Jytes, 96-2669, (La. 12/12/97), 704 So.2d 241,242; citing State ft Maatan, 95-0981, (La 4/28/95),
653 So.2d 1176.
34 EvUtsv. Luce?, 469 U.S. 387,105 S.Ct 830,83 L.Ed.2d821 (1985).
35 See Efitts. 105 S.Ct at 835
36 14.
37 McCoy v. Court ofAppeals of Wisconsin, Dist 1,486 U.S. 429,438,108 S.Ct. 1895,100 L,Ed.2d 440
(1988), 56 USLW 4520.
38 M, at444.
30

The first conviction the State retied on in seeking to have Anderson adjudicated a third
felony offender is for one count of simple burglary under docket number 375879 originating in

the Twenty-Second Judicial District Court.
The second conviction the State retied on is for one count of felon in possession of a
firearm in docket number 395212 also originating in the Twenty-Second Judicial District Court.
In alleging Anderson to be a third felony offender, the State retied on the same
underlying felony it used to prosecute him as a convicted felony in possession of a firearm. As
it stands, Anderson's adjudication and enhanced sentencing as a third felony offender under La.
R.S. 15:529.1 is the result of an impermissible double enhancement.39 The trial court erred
when it adjudicated Anderson a third felony offender under the habitual offender law.
On March 29, 2004, Anderson pled guilty to one count of simple burglary of an
inhabited dwelling and was sentenced to serve six years at hard labor. On October 17, 2005,
Anderson pled guilty to one count of felon possession of a firearm and was sentenced to serve
ten yews at hard labor.
In its felon bill of information, the State's count two against Anderson reads:
R.S. 15:95.1 CONVICTED FELON POSSESSION OF A FIREARM OR
CARRYING A CONCEALED WEAPON, by being a convicted felon; having
previously been convicted of POSSESSION OF COCAINE ON OCTOBER 17,
2005, IN DOCKET NUMBER 395213, IN THE 22ND JUDICIAL DISTRICT
COURT IN ST. TAMMANY, and possessing or having concealed upon his
person a weapon, to-wit A GUN.
In this case, Anderson was arrested and charged with one count of armed robbery and
one count of being a felon in possession of a firearm in violation of La. R.S. 14:64 and La. R_S.
14:95.4, respectively. To support the charge of felon in possession of a firearm against
39 State ft Dawmrt, 02-1187 (La. App. 5* Cir. 3/25/03), 844 So.2d 159,168.
31

Anderson, the State used the above cited October 17, 2005, convictions for possession of
cocaine and possessing or having upon his person a weapon as the underlying felony. However,
the State's habitual offender bill of information listed the same firearm conviction to support its
allegation that Anderson was a third felony offender.
In State v. Baker, the State supreme court noted that ccthe state may not seek multiple
enhancement of a defendant's sentence on the basis of the same set of prior conviction.»

40

However, that is exactly what the State did in this case. The State knew Anderson had a
previous conviction for felon in possession of firearm. This is what prompted the district
attorney's office to file a bill of information against Anderson with being a felon in possession
of a firearm in violation of La. R.S. 14:95.1.
Contrary to the state and federal constitutions, the State used the same underlying felony
twice to have Anderson adjudicated a third felony offender.41 As a result, the trial court erred
when it adjudicated and sentenced Anderson as a third felony offender under La. R.S. 15:529.1.
The Fifth Amendment to the United States Constitution and Article 1 § 15 of the
Louisiana Constitution guarantees that no one is to be placed in jeopardy twice for the same
offense.42 However, Anderson's right of equal protection has been violated because the very
provisions that are designed to protect him were violated by an impermissible double
enhancement when he was subjected to “multiple punishment for the same conduct.43
40 State v. Baker, 2006-2175 (La. 10/16/07), 970 So.2d 948, 957; see also State v. Ruiz, 2006-1755 p. 12-13
(La. 4/11/07,955 So.2d 81,89.
41 La. Const Art. 1 § 15; U.S. Const. Amend. V; U.S. Const Amend. VDI; U.S. Const Amend. XIV.
42 See State v. Haiimsay, 2012-0926 (La. App. 4th Cir. 7/3/13), 120 So.3d 795,797.
43 M; citing North CaroOm v. Prnree, 395 U.S. 711,717,89 S.Ct 2072,2076, 23 L.Ed.2d 656 (1969); State
v. Mtiigfi, 431 So.2d 763,767 (La. 1983); State v. Warner, 94-2649, p. 4 (La. App. 4* Cir. 3/16/95), 653
32

CONCLUSION

Hie petition for a writ of certiorari should be gr anted.

Respectfully submitted,
__ ,

CARTER VINCENT ANDERSON #418030
CAMP C BEAR 1
LOUISIANA STATE PENITENTIARY
ANGOLA, LOUISIANA 70712
Dale: May 26,2020

So. 2d 57, 59.

33

